<html>
<title> - [H.A.S.C. No. 109-125] NAVY TRANSFORMATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 109-125] 

                          NAVY TRANSFORMATION 

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 6, 2006

                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

33-793 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















                         READINESS SUBCOMMITTEE

                    JOEL HEFLEY, Colorado, Chairman
JOHN N. HOSTETTLER, Indiana          SOLOMON P. ORTIZ, Texas
WALTER B. JONES, North Carolina      LANE EVANS, Illinois
JIM RYUN, Kansas                     GENE TAYLOR, Mississippi
J. RANDY FORBES, Virginia            NEIL ABERCROMBIE, Hawaii
JEFF MILLER, Florida                 SILVESTRE REYES, Texas
MIKE ROGERS, Alabama                 VIC SNYDER, Arkansas
JOE SCHWARZ, Michigan                ROBERT A. BRADY, Pennsylvania
CATHY McMORRIS, Washington           SUSAN A. DAVIS, California
JOHN M. McHUGH, New York             JIM MARSHALL, Georgia
HOWARD P. ``BUCK'' McKEON,           KENDRICK B. MEEK, Florida
    California                       MADELEINE Z. BORDALLO, Guam
ROBIN HAYES, North Carolina          TIM RYAN, Ohio
ROB SIMMONS, Connecticut             MARK UDALL, Colorado
JEB BRADLEY, New Hampshire           G.K. BUTTERFIELD, North Carolina
CANDICE MILLER, Michigan
TRENT FRANKS, Arizona
                 Joe Fengler, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                   Christine Roushdy, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, April 6, 2006, Navy Transformation.....................     1

Appendix:

Thursday, April 6, 2006..........................................    33
                              ----------                              

                        THURSDAY, APRIL 6, 2006
                          NAVY TRANSFORMATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hefley, Hon. Joel, a Representative from Colorado, Chairman, 
  Readiness Subcommittee.........................................     1
Ortiz, Hon. Solomon P., a Representative from Texas, Ranking 
  Member, Readiness Subcommittee.................................     2

                               WITNESSES

Jamian, Hon. John E., Acting Maritime Administrator, U.S. 
  Department of Transportation, U.S. Maritime Administration.....     8
McCarthy, Vice Adm. Justin D., Director for Material Readiness 
  and Logistics, U.S. Navy.......................................     3

                                APPENDIX

Prepared Statements:


    Hefley, Hon. Joel............................................    37
    Jamian, Hon. John E..........................................    41
    McCarthy, Vice Adm. Justin D.................................    46

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:


    Mr. Taylor...................................................    59
                          NAVY TRANSFORMATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Thursday, April 6, 2006.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joel Hefley 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE FROM 
           COLORADO, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Hefley. The committee, such as it is, will come to 
order.
    It is easy to bring the committee to order when there are 
three of us, and if we could leave everybody else out of the 
room, the three of us would get something done, wouldn't we?
    Gentlemen, welcome.
    Let me run through this opening statement real quick, and 
then Solomon, and then we will go from there.
    Today we meet to discuss several key transformation 
initiatives of the Department of the Navy. The Navy is 
aggressively transforming its forces to prepare for the 
uncertainties of the future ranging from conventional threats 
posed by nation-states to asymmetric threats posed by non-state 
actors.
    In this new environment, the Navy has recently implemented 
three initiatives, the Fleet Response Plan, the Navy 
Expeditionary Combat Command and a crew rotation program 
commonly referred to as Sea Swap.
    While we encourage new approaches from all the services, we 
also have an important oversight role. These three programs 
represent institutional changes to the way the Navy has 
operated in the past. For example, the Navy Fleet Response Plan 
changes the traditional six-month carrier deployment cycles.
    The Navy now has the ability to surge six vessels within a 
30-day window and an additional carrier within 90 days. But 
this surge capability comes with a cost not only in terms of 
dollars but to our sailors families, their training and even 
basic ship maintenance.
    The Navy Expeditionary Combat Command was formed this year 
to expand the Navy's capabilities to address a stated need for 
sailors to be trained in close combat and force protection. 
Just as an aside, that sounds an awful lot like the Marines to 
me. I will want more explanation on this.
    As part of this command, the Navy has reestablished the 
riverine combat force. The brown water Navy has not experienced 
widespread use since swift boats fought in Vietnam.
    The Navy Sea Swap is a crew rotation initiative designed to 
extend ship deployment length by swapping crews in mid-
deployment at sea. This saves time regarding the steaming days 
a ship incurs as it travels to and from an area of 
responsibility.
    The Government Accountability Office (GAO) issued a report 
in November 2004 that raised many concerns about this program, 
ranging from the impact on ship maintenance to training and 
crew morale.
    Individually, these initiatives seem to be worthwhile 
endeavors. However, when taken together, we have concerns that 
the Navy may have difficulty understanding the long-term 
impacts on professional development and mission training, 
maintenance and repair, and morale and retention.
    In addition to these three topics, we look forward to 
discussing the implications of the Quadrennial Defense Review 
(QDR) and the Maritime Administration's policies regarding 
foreign shipyard depot maintenance.
    The Quadrennial Defense Review (QDR) states, ``The fleet 
will have greater presence in the Pacific Ocean, consistent 
with the global shift of trade and transport.'' Many of us have 
questions on how and when the Navy will begin the shift of 
naval assets in order to accomplish the goals and policies of 
the QDR.
    Finally, members of our committee have had longstanding 
questions regarding the way in which the Maritime 
Administration makes decisions pertaining to foreign shipyard 
repair of ready reserve force vessels.
    We look forward to discussing this issue with the acting 
maritime administrator. We have two distinguished witnesses 
with us today to discuss these issues.
    But first, I would like to introduce Solomon Ortiz--and it 
comes at a good time, Solomon, because I am getting all choked 
up over this--for any questions or comments you might have.
    [The prepared statement of Mr. Hefley can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE FROM 
         TEXAS, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Ortiz. Well, thank you, Mr. Chairman.
    I want to welcome our witnesses, and I look forward to 
hearing their testimony on these important Navy issues today.
    Mr. Chairman, the Navy has taken on many transformation 
initiatives to streamline and modernize the fleet and its 
mission. And I applaud the Navy for working so hard to 
transform. But I am a bit concerned that they may be leaving 
vital missions behind in their drive to move forward.
    I am also concerned that the speed of this transformation 
leaves the Congress out of decisions that would have far-
reaching national defense and budgetary consequences.
    For example, I am very, very pleased to see the Navy 
embrace brown water operations with the establishment of the 
riverine combat force. This force, with the total combat ship, 
will fill a capability gap in locations around the world where 
the United States may have vital interests. This is an 
outstanding step forward.
    But I am concerned that this capability has been placed 
within a new 40,000-sailor expeditionary combat command. This 
command was established by a Navy policy memorandum and it 
includes ground missions that appear to recreate capabilities 
already resident in other services.
    The Navy may need these missions accomplished, but I do not 
understand why the services with existing ground missions 
cannot fill the requirement. And I hope I can be enlightened as 
to why this happened.
    I personally believe that creating a new structure for 
expanded ground missions is wasteful and distracts from the 
Navy's blue water responsibilities.
    Examples of this distraction can be seen in the $120 
million shortfall for Navy steaming days in fiscal year 2007 
and the $119 million bill deferred maintenance. Either of these 
bills could be paid with the $115 million the Navy has 
allocated for the expeditionary combat command fiscal year 2006 
and fiscal year 2007.
    I am also concerned that the Navy is allowing foreign 
missions to slip, such as the countermine warfare. The recent 
moves and reorganizations in the mine warfare command will 
diminish the Navy's mine-hunting capability and affect the 
ability to project our forces into potentially hazardous 
waters.
    Mr. Chairman, I believe that transformation is necessary. 
The Navy must change to meet emerging threats and look forward 
to the future. But transformation is expensive, with far-
reaching effects that extend far beyond the Navy.
    For this reason, Congress must be involved in 
transformation decisions to ensure that all the needs of the 
national defense are served. You know, when we see an increased 
budget, and we see supplementals and we see a deficit, of 
course, this is of great concern to us.
    But I know that the admiral will give us a good 
explanation. I do not mean to be this harsh. I just wanted to 
get some good, sound explanations to some of my questions. And 
I thank you, Admiral, for having you with us today.
    Thank you, Mr. Chairman.
    Mr. Hefley. Thank you, Mr. Ortiz.
    Now, our witnesses are Vice Admiral Justin McCarthy, United 
States Navy, Director of Material Readiness and Logistics, and 
the Honorable John Jamian, Acting Administrator, United States 
Department of Transportation, U.S. Maritime Administration.
    We also have four experts sitting behind these two 
gentlemen. If they get in trouble, these four experts are 
willing to fall into the breach and drag them out and take care 
of them.
    So let me call on you, Admiral McCarthy, first, and we will 
go from there.

    STATEMENT OF VICE ADM. JUSTIN D. MCCARTHY, DIRECTOR FOR 
          MATERIAL READINESS AND LOGISTICS, U.S. NAVY

    Admiral McCarthy. Thank you, Mr. Chairman, Congressman 
Ortiz and members of the House Armed Services Committee 
Readiness Subcommittee. Thank you for the opportunity to 
testify before you on the Navy's ongoing transformation 
efforts.
    Joining me today from the Department of the Navy--and I 
will explain their positions--Rear Admiral Donald K. Bullard, 
Commander, Navy Expeditionary Combat Command, who I think will 
be able to lend some interesting insights into the Navy's 
progress there; Rear Admiral William D. Crowder, Assistant 
Deputy Chief of Naval Operations for Plans, Policies and 
Operations; and Rear Admiral John C. Orzalli, Deputy Director, 
Fleet Readiness Division; and Mr. Christopher D. Thayer, 
Director of Strategic Planning for the Military Sealift 
Command.
    Mr. Chairman, with your permission, I would like to submit 
my full statement for the record and present a somewhat shorter 
opening statement here at this time.
    Mr. Hefley. Without objection, all the statements will be 
submitted in their entirety for the record.
    Admiral McCarthy. Thank you, sir.
    Mr. Chairman, as stated in the preface to the Department of 
Defense Quadrennial Defense Review, this department has been 
and is transforming along a continuum that reflects our best 
understanding of a world that has changed a great deal since 
the end of the last century.
    That statement characterizes well the Navy's efforts to 
address the readiness and relevance of our contribution to the 
joint force. The initiatives I will outline in my statement are 
focused on ensuring the Navy's ability to surge quickly to 
trouble spots across the globe and address the challenges posed 
by this new strategic environment.
    The first initiative I would like to touch on is the Fleet 
Response Plan, or FRP. The FRP is the operational readiness 
framework through which the Navy meets global combatant 
commander requirements for forward-deployed forces and crisis 
surge response.
    It enables the Navy to respond to emergent requests for 
forces from combatant commanders such as the U.S. Central 
Command. With FRP, the Navy can deploy agile, flexible and 
scalable naval forces capable of surging quickly to deal with 
unexpected threats, humanitarian disasters, and contingency 
operations.
    Under FRP, the Navy has developed capability-based 
schedules that are used to manage and identify the level of 
training a ship and air wing must complete to build its 
readiness to deploy. The schedule contains three progressive 
readiness goals: Global War on Terror (GWOT) surge, Major 
Combat Operations surge, and routine deployment status.
    Each readiness goal specifies phases of training that must 
be completed to achieve that goal. Regularly scheduled ship and 
aircraft depot maintenance is sequenced during each month of 
the FRP to enable the appropriate resource application to 
produce the correct readiness for each unit.
    Rear Admiral Crowder, former commander of the Abraham 
Lincoln battle group during the tsunami relief effort, is a 
member of our panel and can provide additional insights into 
the Fleet Response Plan during our question-and-answer period.
    As a component of the new readiness and surge construct 
represented by the FRP, the Navy continues to examine its 
readiness resourcing framework.
    In this years budget submission you will see some of the 
effects of that examination. The budget reflects additional 
risk in the operation and maintenance funded readiness 
accounts, primarily in the funded number of deployed steaming 
days per quarter.
    While fully supporting steaming requirements for carrier 
strike group training and workups, ensuring deploying forces 
will be fully trained and ready to deploy, the budget request 
does restrict deployed operations to levels below that 
previously provided.
    This strategy is consistent with fiscal year 2006 
congressional actions that reduced peacetime operating tempo 
funding levels. Should these levels prove insufficient to meet 
combatant commander operational requirements, the Navy will 
reevaluate priorities and make appropriate internal adjustments 
in execution and/or seek supplemental funding if combatant 
commander requirements justify such action.
    The budget also reflects additional risk in aviation 
operations. Funding levels in the flying-hour program have been 
reduced in the pre-workup phases of the inter-deployment 
readiness cycle, as well as in the post-deployment surge phase 
of the FRP when flight crews are at their highest state of 
readiness.
    We have fully funded the flying hours required for pre-
deployment workups and for the maintenance of crew proficiency 
while deployed to ensure readiness levels are achieved and 
maintained throughout the entire deployment period.
    In a macro sense, FRP is designed and funded to provide 
combatant commanders 2.3 Carrier Strike Group theater presence 
on an annualized basis, with the capability to deliver six 
strike groups within 30 days and an additional strike group 
within 90 days, with the 11-carrier force called for in the 
Quadrennial Defense Review.
    We are confident that we can support both those surge and 
presence requirements if this budget request is approved.
    As you know, the QDR identified the need to position naval 
forces to the Pacific. Accordingly, the Navy plans to adjust 
its force posture and base support to provide at least six 
operationally available and sustainable carriers and 60 percent 
of its submarines in the Pacific to support engagement, 
presence and deterrence.
    There are several implications of this force repositioning 
that are currently under review. One important aspect is the 
impact of our ship maintenance plan and our depot maintenance 
industrial base.
    Whereas the final depot maintenance plan will not 
crystallize until all force posture adjustments are identified, 
we are confident our maintenance capacity and capability will 
continue to meet FRP requirements.
    A key element in that confidence is the capability provided 
by our Regional Maintenance Centers. The Regional Maintenance 
Center concept was first piloted at Pearl Harbor Naval Shipyard 
in 1997.
    Prior to this pilot, all ship maintenance depots operated 
as elements of the Navy Working Capital Fund. All other organic 
ship maintenance activities were direct-or mission-funded. In 
order to facilitate the consolidation, a common financing 
mechanism was needed. Mission funding was chosen for this pilot 
effort.
    The transition to a common financing mechanism has 
facilitated the consolidation that has clearly demonstrated an 
enhanced flexibility to rapidly adjust resources to the highest 
priority work, a key capability for responsive maintenance 
support to FRP requirements.
    A second pilot effort at Puget Sound Naval Shipyard and 
associated Navy intermediate maintenance facilities began in 
2003. Rear Admiral Orzalli, the then-commander of the Puget 
Sound Naval Shipyard, is a member of our panel today and is 
available to provide some personal insights on that pilot 
effort during the question-and-answer period.
    Our fiscal year 2007 budget includes conversion of the last 
two organic maintenance activities, Norfolk Naval Shipyard and 
Portsmouth Naval Shipyard, to mission funding.
    Approval of this conversion will facilitate completion of 
the waterfront integration in Norfolk and place all our 
maintenance activities in a single, flexible, responsive 
financial system that supports the Navy's readiness 
requirements and the Fleet Response Plan.
    I will now turn to another transformation initiative tied 
to the Navy's response to the Global War on Terror.
    In January 2006, the Navy Expeditionary Combat Command was 
established. Its purpose is twofold, to coherently organize 
existing Navy expeditionary forces, to deliver more effective 
combat and combat support capability, and to organize, man, 
train and equip new expeditionary war fighting capability in 
the areas of riverine support, maritime civil affairs, and 
expeditionary training and security.
    The Navy Expeditionary Combat Command (NECC) combines the 
Navy's expeditionary forces under a single commander to provide 
Navy component commanders and combatant commanders the 
capability to conduct theater security cooperation, security 
assistance, foreign navy training, and foreign internal 
defense, maritime civil affairs and riverine operations.
    Rear Admiral Bullard, the commander of the Navy 
Expeditionary Combat Command, is also here as a member of our 
panel today, and he will be happy to respond to questions on 
his command's developing capabilities.
    Fundamentally, NECC will deliver adaptive force packages to 
fulfill combatant commander demands by leveraging both the 
solid foundation of core capabilities that exist in today's 
Navy expeditionary force as well as in several emerging 
capability areas.
    Combining these capabilities under a unified command 
structure will increase the overall readiness and 
responsiveness of these combined forces in providing Navy 
support to combatant commander requirements in meeting evolving 
irregular warfare missions.
    The final transformation initiative I will address is the 
Sea Swap initiative. Sea Swap is an innovative crewing concept 
designed to support FRP by increasing the Navy's forward 
presence. That increase is delivered by keeping a single hull 
continuously deployed in a given theater of operation, while 
replacing the entire crew at 6-month intervals.
    By leaving the ship in theater and rotating crews, the Navy 
saves on transit times, fuel costs, as well as provides the 
combatant commander more in-theater presence.
    The initial Pacific Fleet Sea Swap experiment in 2002 
through 2004 involved six ships, three destroyers (DDs) and 
three guided missile destroyers (DDGs). Over the two-year 
period of the test, two hulls, USS Fletcher and USS Higgins, 
remained forward-deployed with trained relief crews rotating on 
and off every six months. Higgins remained deployed for 10 
months and Fletcher for 22 months before returning to the 
continental United States.
    In March 2005 Fleet Forces Command and the naval surface 
force began a second Sea Swap experiment using three Atlantic 
fleet DDGs. The first of three planned overseas crew swap-outs 
occurred in September 2005.
    In a separate Sea Swap initiative, three patrol coastal 
ships were deployed to the Arabian Gulf in January 2003 to take 
part in maritime interception operations. Two more were 
deployed in April 2004. These ships will remain in theater for 
an indefinite period. Crew swap is being utilized to maintain 
acceptable turnaround ratios for the sailors assigned to these 
ships as well as the two mine countermeasure ships deployed to 
the Gulf.
    As a final area in which Sea Swap concepts are being 
explored, Sea Swap is being considered as one of several crew 
rotational options for the Navy's littoral combat ships. Our 
current plan is to man the first two littoral combat ship hulls 
under a blue-gold manning concept similar to that used for our 
fleet ballistic missile submarines. No decisions beyond the 
first two hulls have yet been made.
    The Navy's goal in experimenting with alternative crewing 
concepts such as Sea Swap is to investigate options for 
satisfying combatant commander requirements for forward 
presence while maintaining FRP surge capabilities at less 
overall cost.
    As highlighted in the November 2004 GAO report, we are 
still in the process of understanding the full spectrum of Sea 
Swap impacts on both our crews and ship material condition.
    Having said that, we view these continuing pilots as 
providing valuable insight into alternative crewing options and 
are committed to determining the true cost, potential savings, 
and operational impact of the Sea Swap rotational crewing 
models.
    Mr. Chairman, members of the subcommittee, your Navy 
remains at a high level of readiness today. Our intention is to 
keep it there, while employing transformational initiatives 
such as I have addressed both to ensure its continued relevance 
in today's threats as well as to ensure we are using the 
taxpayers' funds most effectively and efficiently.
    This subcommittees support has been central to our ability 
to make that statement, particularly with respect to providing 
funding support both in response to the president's budget and 
supplemental funding requests.
    On behalf of the men and women who comprise our Navy, I 
thank you for your commitment, your service and your continued 
support of our armed services.
    Mr. Chairman, that concludes my remarks. Myself and my 
fellow panel members stand ready to take your questions.
    [The prepared statement of Admiral McCarthy can be found in 
the Appendix on page 46.]
    Mr. Hefley. Thank you very much.
    And now, Mr. Jamian.

       STATEMENT OF HON. JOHN E. JAMIAN, ACTING MARITIME 
ADMINISTRATOR, U.S. DEPARTMENT OF TRANSPORTATION, U.S. MARITIME 
                         ADMINISTRATION

    Mr. Jamian. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to submit this statement. The mission of the U.S. 
Department of Transportations Maritime Administration (MARAD) 
is to strengthen the U.S. maritime transportation system, 
including infrastructure, industry and labor.
    It is designed to meet the economic and national security 
needs of this nation. MARAD programs promote the development 
and maintenance of an adequate, well-balanced United States 
merchant marine, sufficient to carry all of our nations 
domestic waterborne commerce and a substantial portion of its 
foreign waterborne commerce.
    MARAD vessels serve as a naval and military auxiliary in 
times of war or national emergency. MARAD also seeks to ensure 
that the United States maintains adequate shipbuilding and 
repair services as well as efficient ports and intermodal 
connections between our water and land transportation systems.
    I cannot stress enough the importance of our mission. MARAD 
both serves and defends America. In this regard, MARAD 
maintains a fleet of cargo ships ready to serve in case of 
conflict or national emergency, and they are known as the Ready 
Reserve Force. We call them the RRF.
    When activated, these ships operate under an agreement with 
Department of Defense. The Military Sealift Command, MSC, 
assumes operational control, OPCON, of the vessels on behalf of 
the U.S. Transportation Command.
    OPCON means that the MSC controls the ships schedule and 
cargo, and my agency, MARAD, retains management of the vessel 
through a ship management contract.
    Forty RRF ships supported the initial deployment of our 
armed forces in Iraq, providing nearly 13,000 operational days 
of service, including transporting troops and supplies in 
support of our military. Simply put, these ships take the 
supplies to the war front.
    Specifically, the RRF is a fleet of documented cargo 
vessels owned by the U.S. Government and under the jurisdiction 
of the secretary of transportation. By statute, the Department 
of Transportation and MARAD are required to contract with 
commercial ship managers to maintain, operate and crew these 
RRF vessels.
    Pursuant to a memorandum of understanding with the 
Department of Defense, the RRF is maintained by the Department 
of Transportation in a readiness status to support DOD 
contingencies. Ship repairs are acquired by MARAD's ship 
managers under approved commercial purchasing systems. Best 
value and competition are significant and obvious 
considerations.
    Some members of the committee have expressed interest in 
the operating procedures of the S.S. Petersburg. I would like 
to briefly discuss these procedures. It is MARAD's mission to 
promote all aspects of the American maritime industry. 
Consequently, 95 percent of the repairs to the RRF fleet have 
been performed in U.S. shipyards.
    Federal law requires that naval vessels and vessels under 
the jurisdiction of the secretary of Navy home ported in the 
United States be repaired in the United States or Guam. As a 
U.S. District Court ruled in December 2005, RRF vessels do not 
fall within the scope of this statute.
    Recognizing the importance of the U.S. shipbuilding 
industry, MARAD regards that repairs be made in U.S. shipyards 
except for emergency or mission essential repairs, or for pre-
positioned ships which are deployed overseas, or for any vessel 
forward-deployed outside of the United States.
    For example, repairs to the Petersburg were made in 
Singapore in order to ensure its continued readiness. The 
Petersburg, a very large offshore petrolium discharge system 
(OPDS) tanker pre-positioned in Guam, was dry-docked in 
Singapore in August of 2005. Shipyards in both Hawaii and Guam 
were unable to perform the repairs during the required 
performance period.
    Specifically, Guam Shipyards dry-dock was unavailable until 
November 2005 and could not complete the work until February 
2006, which would have resulted in the Petersburg being 
unavailable for its specialized mission for over 5 months.
    In addition to being unavailable during the required 
performance period, Guam Shipyards bid was three times more 
than the successful offerer.
    In closing, I would like to call the committees attention 
the Department of Transportation and MARAD's activation of the 
RRF and training ships as part of our nation's response to the 
devastation hurled at the entire Gulf Coast region by 
Hurricanes Katrina and Rita.
    Eleven MARAD ships provided the people in the stricken Gulf 
Coast with urgently needed supplies, clean water, electricity, 
generation and oil-spill cleanup assistance as well as 270,000 
meals and 83,165 berth nights for the recovery workers and 
evacuees.
    Unquestionably, MARAD's RRF has lived up to the term 
``ready''. And just as importantly, the Ready Reserve Force has 
proven to be a cost-effective program for the United States of 
America.
    Thank you for offering me the opportunity to provide this 
statement for the record. And I am happy to be able to answer 
questions that the committee members may have.
    [The prepared statement of Mr. Jamian can be found in the 
Appendix on page 41.]
    Mr. Hefley. Thank you very much.
    Admiral McCarthy, or maybe I should address this to Admiral 
Bullard, whichever one of you think it is appropriate, I am a 
little disturbed about the Navy Expeditionary Combat Command. I 
am having trouble understanding this.
    I know what they are supposed to do, but isn't that what 
the Marine Corps is supposed to do? Wasn't the Marine Corps 
made a part of the Navy so that they could be a close combat 
and force protection arm of the Navy? Otherwise, why be in the 
Navy? And I guess I would ask that question.
    And if the Navy--if the answer is no, you don't want the 
Marine Corps for that, then--tells me the Navy has no use for 
the Marine Corps now, so why doesn't the Marine Corps, every 
Marine and infantryman--why don't they become part of the 
infantry in the Army?
    It doesn't make any sense to me that we have to duplicate 
what the Marines were set up to do, so share with me what the 
thinking is on that.
    Admiral McCarthy. Mr. Chairman, we would be delighted to do 
that. I am going to ask Admiral Bullard if he will permit me to 
explain the purpose of the Navy Expeditionary Combat Command. 
It is not redundant of the Air Force. It is in the maritime 
domain of which the Navy holds responsibility.
    And it is related to the Navy's capability within the 
maritime domain to provide support to the full range of combat 
operations. I think we can do that very quickly, if you will 
just allow us to show you a little bit of background on the 
Navy Expeditionary Combat Command.
    Don.
    Admiral Bullard. Put up the first chart, please.
    Mr. Chairman, we are not duplicating what the Marine Corps 
is doing. In fact, we are working very closely in that battle 
space and, in fact, I have Marine Corps on my staff as we work 
this.
    If you take a look up to the first poster board I show you 
there, those are current in capabilities and functions that are 
core capability to the U.S. Navy and they have been for a long 
time.
    All those in black we have been doing since World War II 
and we are doing similar around the world today.
    The ones in red are the ones we are building anew. This is 
about combat service and combat service support troops. This is 
not about combat arms. If we need a naval infantry, that is the 
U.S. Marine Corps. They are the naval infantry. Their naval 
infantry is a offensive combat arms.
    Except for in the riverine, we are not building a combat 
arms force. We have an established expeditionary force that 
does those functions in the environment and does establish 
Anti-Terrorism/Force Protection (ATFP).
    Our current forces today that do naval security or maritime 
security--we are protecting the oil platforms, the Iraqi oil 
platforms, in the northern Gulf. We just turned those over to 
the Iraqis, the Iraqis' advisors.
    We protect all the Maritime Support Center (MSC) ships with 
force protection that go through the canals as well as our 
nuclear submarines. We protect our ports with our security 
boats both in Fujara, Ashwayba and elsewhere around the world.
    We help provide force protection to our bases, our naval 
bases, around the world and at home. So we have a force 
protection capability, but it does not also dual as a combat 
arms, as the Marine Corps. The Marine Corps is our offense arms 
that come from the sea.
    If you take a look at the red capabilities, those are the 
ones we need to expand. As the admiral said the expeditionary 
combat command is to be a Title X oversight, so we better 
organize all these expeditionary sailors we currently have, and 
we have an organization in which to grown in new capabilities.
    We are realigning all these current forces. Before, they 
did not have single oversight even though they work in the same 
environment.
    We are also restructuring how we do our training and 
capitalizing on synergies of training, on equipping and on 
manning. This allows us, under a new alignment, to increase our 
capacity in contributing to the Global War on Terror.
    Could I have the next slide?
    When I bond all of these capabilities that are current to 
the Navy together, as well as the red ones we build, such as 
riverine, that will extend our battle space from the blue water 
with a continuous maritime and domain awareness all the way 
through the green and brown water, and tie all those current 
capabilities together, I have a cohesive, powerful security 
picture of the maritime environment.
    No one else, whether it be the Marines, the Army or the Air 
Force, do not do this in this battle space. We are expedition. 
We can be sustained from the sea base and allow the flow of the 
joint force, heavy force, the Army and the Air Force, who then 
comes in and takes over those roles.
    All those functions you see on that poster board today we 
do today, including a little bit of the riverine. Our in-shore 
boat units, which is the Navy coastal warfare, has been around 
since Vietnam. It is working the harbors and bays. We are 
expanding that with riverine to go up into the inland waterways 
so that we now can take that sanctuary away from the 
terrorists.
    The Maritime Civil Affairs--the Army has a major civil 
affairs effort. We work and do civil military operations around 
the world every single day. But we have never had the 
capability to focus on the assessment and planning and 
strategic implications of doing naval military civil operations 
in the maritime environment.
    Our civil affairs group will help gain cultural and 
language skills we need to engage with our partners and friends 
around the world so we can help improve their capability to 
fight the war on terrorism.
    Our civil affairs group will plug into the Army structure 
and will focus on the maritime civil affairs environment such 
as port ops, security, customs and other which we have not done 
in the past.
    We see this as an engagement, the important phase zero 
tasks that we can contribute and improve the capabilities of 
other nations in their harbors and ports that will help stem 
the flow of human trafficking, arms, drugs and other potential 
terrorism.
    So the Naval Expeditionary Combat Command more or less 
reorganizes our current force structure as well as building the 
riverine force, a portion of maritime civil affairs, and an 
expedition training team which is putting together key core 
capabilities we own today so we can take those to other 
countries in the world and help them secure their waterways.
    About 113 major rivers provide transportation for 15 
percent of the world's commerce that comes into ports, and 94 
percent of that commerce travels on the sea. We know the 
terrorists are using some of the major rivers as sanctuaries. 
We need to keep this an away game, not a home game.
    We need to take away those sanctuaries. We need to combine 
the complete effort of the Navy, fund the blue water all the 
way into green, in a continuous Global War on Terror maritime 
domain awareness and an integrated effort and provide the best 
force protection, the best equipment and the best training and 
readiness for the sailors we ask to operate. That is what the 
NEC is all about.
    Mr. Hefley. If I understand my history correctly on naval 
history--and you know much more about it than I do--but that is 
exactly what the Marine Corps were designed to do. And if you 
look at the Revolutionary War--and for a long time, that is 
what they did.
    I might point out also that the Army comes from the sea, 
too, so I don't know why that is a unique thing with the Marine 
Corps. And all you have got to do is look at Normandy to see 
whether that is true or not.
    And so somewhere along the line you have decided well, the 
Marine Corps has a different role, and therefore we are not 
going to use them anymore to protect ships and to do the kinds 
of things that you have just described.
    But then that raises the question--which I am sure you 
haven't even come to grips with, because if you did come to 
grips with it the Marine commandant would be down on you 
something terrible. He will probably be in my office before the 
end of the day for me even asking these questions.
    But it does raise the question of why we need 200,000 
infantrymen who have no connection at all with the Navy 
anymore, obviously, as a separate branch of the service, rather 
than adding 200,000 infantrymen in green uniforms in the Army.
    Admiral McCarthy. But, Mr. Chairman, our amphibious forces, 
which are the primary connection between the Marine Corps and 
the Navy, have not changed one iota. We are talking about a 
seam that we are addressing in terms of closing the 
relationship along these riverine areas, not in changing the 
relationship with the Marine Corps.
    We are integrated, have always been, and will always be 
integrated with the Marine Corps and are a combined maritime 
force because of that integration. That is not changing.
    Mr. Hefley. Well, I don't want to belabor it, because there 
are others that have questions, but color me skeptical on this. 
I remain unconvinced.
    It is all right for you to change the role of the Marine 
Corps, and that has been changed since history, even though the 
maritime part that you are talking about maybe hasn't, but that 
has--the role has been.
    You had Marines with rifles on ships to be that close 
combat force on ships, in history. And now you are going to 
create a new branch of the Navy to do that. I don't understand 
that.
    But, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral, with the mine warfare expertise at a premium, what 
is the reason behind the Navy's consolidation of Mine Warfare 
Command with the Antisubmarine Warfare Command? Doesn't this 
diminish the role of the mine warfare capability?
    I mean, I know, coming from a seaport, Corpus Christi--and 
when we look at the commercial lanes that--sea lanes that we 
utilize, I think that more vessels were sunk by mines than by 
torpedoes or submarines. Why is the merge necessary? Maybe 
somebody can explain that to me.
    Admiral McCarthy. Well, there is a natural common 
environment between the undersea component of Antisubmarine 
Warfare (ASW) and that component related to the mine warfare. 
As we pursue the optimum relationships within our Navy and how 
to best leverage our combined capability, we continually 
evaluate what is the best relationship.
    There was a decision made that in this case we felt we 
could get synergy from the combined forces, if you will, of 
these two areas that are both focused on the undersea 
environment. And that is fundamentally one of the reasons why 
we moved toward this type of an arrangement.
    But not to say that they are identical, only that they 
share some common aspects which we expect we will get some 
synergy by an alignment with the two.
    Mr. Ortiz. But this has not been tested yet.
    Admiral McCarthy. No.
    Mr. Ortiz. You know, we are hoping that it works out. What 
if it doesn't and we do away with mine warfare?
    Admiral McCarthy. What if it doesn't? Well, I wouldn't 
speculate, but I would expect that, like anything, when we 
experiment with new concepts, if we find that they are 
unsuccessful, we would again adjust accordingly.
    Mr. Ortiz. You know, because we have seen that happen with 
the Comanche, and we have seen it happen with unmanned air 
vehicles where they don't work, and we spend millions and 
billions of dollars.
    I just hope that we don't put our young sailors in harm's 
way waiting to see that we come up with the right technology. 
You know, I think, in my opinion--and I was an Army guy. I know 
nothing about the water. I am learning from you gentlemen today 
from the sea.
    But I think they are completely different. I mean, when you 
are talking about torpedoes from a submarine versus a $200 mine 
sitting up there, you know--we saw it with the USS Cole, and we 
have seen it with commercial vessels who were sunk.
    By doing this, are we going to leave our commercial lanes 
open, unprotected, or will we be able to provide the necessary 
protection for our commercial sea lanes?
    Admiral McCarthy. Well, I am going to let Admiral Bullard 
make a comment from the fleet perspective, but I want to 
respond to one thing that you mentioned.
    I can assure you, we are not going to do anything that are 
going to put our sailors in jeopardy.
    Admiral Bullard. And we are not giving up the commercial 
lanes. One of the synergies that the admiral talked about is 
technology. Mine undersea warfare technology, whether it be--is 
mainly acoustical. Side-scan sonar is what we use off those 
ships down there in Ingleside.
    We are now converting those new sensors over to our Romeo 
helos which will be out in North Island. When Littoral Combat 
Ship (LCS) comes on board, the first mission package that we 
are working on is a mine warfare. The second one is an ASW 
because they use the same technology.
    The first LCS will be in San Diego, co-located right next 
to the fleet ASW command as well when they merge. So we will 
have a synergy of our new near-shore ship that is designed to 
do mine warfare as well as with the helo, well as with the 
technology, as well as the school house, as well as the 
operating fleet to develop tactics, techniques and procedures.
    So we see it in the fleet as more focused on that very near 
and dear area that we need. In fact, some of the units I do own 
under the Expeditionary Combat Command are some of the marine 
mammals that work in that same battle space. Those are all out 
in Point Loma and San Diego also.
    So we will have the mine warfare weapons systems, 
technology, tactics, procedures and fleet experimentation all 
in one place.
    Mr. Ortiz. You know, have you been able to maybe 
communicate with the Coast Guard to see how they come into play 
with your new implementation of--are they in the picture as 
well?
    Admiral McCarthy. We have a very close relationship with 
the Coast Guard. We have maritime partners of which in this 
battle space the Coast Guard is a very important one and, yes, 
we are very much engaged in a partnership with the Coast Guard 
in this area.
    Admiral Bullard. I have a working group made up of my staff 
and the Coast Guard Mid-Atlantic region, who meet quite often 
to discuss the interdependencies in the battle space, common 
techniques, tactics and procedures.
    Their forces are helping us overseas, and where can we help 
them here if required. We are working very close with them as 
well as Naval Special Warfare as well as the U.S. Marine Corps. 
We all have working groups and working all together in that 
battle space.
    Mr. Ortiz. I don't want to take all the time. I have some 
other questions, Mr. Chairman, but to allow some of the other 
members to----
    Mr. Hefley. Thank you, Mr. Ortiz.
    Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    Admiral, in your prepared statement to the subcommittee, 
you use the term ``risk'' quite often. And one statement that 
is mentioned is, ``While fully supporting steaming requirements 
for carrier strike group training and workups, ensuring 
deploying forces will be fully trained and ready to deploy, the 
budget,'' which I assume is the proposed budget----
    Admiral McCarthy. Yes, sir.
    Mr. Hostettler [continuing]. ``Does restrict deployed 
operations to levels below that previously provided. This 
strategy is consistent with fiscal year 2006 congressional 
actions that reduced peacetime operating tempo levels.''
    Was that reduction called for by Congress for fiscal year 
2006--was that inconsistent with the budget proposals by the 
administration at that time?
    Admiral McCarthy. That was an additional mark that--for 
$274 million that was taken out of the budget proposal the 
president provided to the Congress, yes, sir.
    Because it was directed at the operating tempo accounts, we 
had to make a decision as to how to best influence, so we 
prioritized to protect our surge and readiness capability and 
therefore took the reduction in our--once the units are 
deployed and in theater, which was our priority, we took the 
reduction in the amount of steaming they would do once there.
    Mr. Hostettler. Right.
    Admiral McCarthy. So that was our approach, yes, sir.
    Mr. Hostettler. And then prior to that, you mentioned the 
fiscal year 2006 appropriation supports 39 deployed steaming 
days while the fiscal year 2007 budget supports 36 deployed 
steaming days per quarter.
    So it is almost a 12 percent reduction--well, 10 percent 
reduction as a result of--so we are going to--so the budget 
proposes a further reduction in steaming days.
    Admiral McCarthy. Yes. There is a slight adjustment there, 
yes, sir. A few more days, that is correct.
    Mr. Hostettler. Right, and that is compared to a baseline 
that you mentioned for prior--prior it was 51 days per quarter. 
Is that a good risk to take? I mean, if Congress did that----
    Admiral McCarthy. Again, our priority, sir, was to get the 
forces ready, achieve the readiness levels required to support 
the combatant commanders and get the forces forward in the 
theater to meet the 2.3 presence requirement that we are 
required to maintain and to achieve the readiness in the surge 
units that may be called for.
    So what we did was we said the least critical is how much 
we are moving around in the theater if we can sustain our 
readiness and have our forces there. So those were the way we 
prioritized.
    There are some issues that say being in port more has its 
advantages, i.e. you are more visible in the theater. We expect 
that in execution we will respond to the combatant commanders' 
requirements.
    Hence, my comment, also in my statement, that we will 
adjust as necessary to ensure we meet combatant commander 
requirements. But our priority was to get the forces ready and 
get them there in the theater so they were available to respond 
as required.
    Mr. Hostettler. And that leads to discussion of Sea Swap, 
does it not?
    Admiral McCarthy. Yes, sir.
    Mr. Hostettler. And the notion of Sea Swap to allow for a 
hull to be present, forward deployed and transfer--I guess my 
first question is what will be the number of hulls in our 
inventory at the end of this year, at the end of the calendar 
year, unless fiscal year is a better----
    Admiral McCarthy. 281 today. I am not sure exactly what the 
number will be at the end of the fiscal year.
    Mr. Hostettler. Okay. But it will be lower than 281.
    Admiral McCarthy. Not much, but it will be close to that 
number, yes, sir.
    Mr. Hostettler. Okay. Does Sea Swap create a potentially 
false sense of capability given that in the past there have 
been steaming days, and you have had to pay for those, but you 
have actually had a hull there to back it up, and so what 
happens in the case of an actual military conflict and you lose 
a hull?
    This notion of a forward-deployed presence and an initial 
presence there looks very good at the initiation of a conflict, 
but where is the ship to back up the----
    Admiral McCarthy. Sea Swap is not in--I am sorry, sir, did 
you finish?
    Mr. Hostettler. Go ahead.
    Admiral McCarthy. Sea Swap is not intended to reduce force 
structure. Sea Swap is intended to address the lost time in 
transit. And therefore, it applies that time to presence in the 
theater. We still have the crews. We still have the hulls. It 
is where they are located and what they are doing.
    So what the Sea Swap is enabling us to do is to move the 
crew--if you will, leapfrog the crew--forward into the theater, 
do a 1-week turnover, and maintain the presence of the hull in 
theater throughout.
    If we were required to surge, we would still have a ready 
crew. It would be assigned to the hull that the crew fell back 
on and be able to surge forward as required. So the force 
structure and the readiness remains. All we have done is 
improve our presence, theater presence.
    Mr. Hostettler. Right. Well, how does that differ, then, 
others--than before? You didn't have hulls in theater? You 
didn't have hulls----
    Admiral McCarthy. No. They would be in transit so they 
wouldn't be in the combatant commander's area of responsibility 
in their theater. I mean, transit times from San Diego, for 
example, to the Gulf--we are talking in excess of 30 days to 
make that transit--close to 30 days, 18 days from Norfolk, to 
get into the Gulf.
    We can fly a crew in and do the Sea Swap within a week. So 
we do a rapid turnover and have the readiness and the presence 
in theater immediately, as opposed to waiting for that 
transition to occur to swap the ships out in transit.
    Mr. Hostettler. So before Sea Swap you wouldn't have a 
forward-deployed presence of any form in the Med, for example, 
or the Persian Gulf.
    Admiral McCarthy. No, we would have had to allow for more 
time. We would have had to allow for the transit time of the 
ship to get into the theater before the departing ship would 
have left the theater.
    Mr. Hostettler. You said earlier from San Diego, so you are 
saying from San Diego to the Med, or to the Persian Gulf?
    Admiral McCarthy. No, no, no. No. I used the Persian Gulf 
as an example because we deploy ships from both Norfolk and San 
Diego to the Gulf. That was just an example.
    Mr. Hostettler. Right. So I guess a very fundamental 
question--where were the ships for deployment prior to Sea 
Swap? Where were the ships physically located? You are not 
suggesting--or is it that they came from San Diego to get 
there, as opposed to being in the Med, near the Persian Gulf.
    Admiral McCarthy. No, they would have been in transit 
somewhere during the period of time--we have eliminated that 
necessary transit time.
    And I want to make clear here, we haven't implemented as a 
policy Sea Swap. We are experimenting with Sea Swap as an 
option for rotational crewing. We know there is--we believe 
there is goodness to Sea Swap. We also know there are things we 
aren't quite clear on the impacts of yet.
    And the experiment we are doing right now with the Atlantic 
Fleet DDGs is to try and address and document and learn more 
about the option of doing rotational crewing. The Navy has not 
made a decision to implement Sea Swap on a class of ships or 
something. We are experimenting with this concept.
    We have a applied a Sea-Swap-like approach to the P.C.s and 
mine countermeasure ship--different situation because those 
ships cannot withstand the transits back and forth routinely 
that we do on our major combatants.
    So I would characterize what we are doing with Sea Swap as 
still in the experimental phase. We are learning. And based on 
our experience and what we discover, we will make a 
determination as to what we may in the future--when we might 
want to use this concept.
    Mr. Hostettler. Well, I think the notion of being forward 
deployed is obviously a great notion, but I just wonder if, at 
one point--the author of the notion of Sea Swap was who?
    Admiral McCarthy. I think it was originally Admiral 
LaFleur, was it not?
    Mr. Hostettler. Okay. So we are thinking about doing 
something with 281 ships, and previously----
    Admiral McCarthy. I don't think we would ever do Sea Swap 
with 281 ships.
    Mr. Hostettler. Okay.
    Admiral McCarthy. To the extent we do Sea Swap, it will be 
limited where it makes sense and where we would get the 
presence. I can guarantee you it would not be a Navy-wide Sea 
Swap implementation on all ships.
    Mr. Hostettler. Right. Yes, I didn't mean we would put Sea 
Swap in place with a 281-ship Navy.
    Admiral McCarthy. Okay.
    Mr. Hostettler. That is what I meant, as opposed to 
something else with a larger Navy. And my concern is that we 
are--that Sea Swap, while very well intentioned and the right 
thing to do with a 600-ship Navy, is--is this, in fact, a way 
to be perceived as being more ready, with a much smaller level 
of overall hulls, when, in fact, we can look ready at the 
outset?
    But the question is sustainability. Will we be able to 
sustain the fight, a significant fight, with a much smaller 
number of hulls overall when, in fact, at the outset we looked 
extremely prepared and extremely ready at the tip of the spear?
    And so that is my concern.
    Admiral McCarthy. Sir, the readiness does not change under 
Sea Swap.
    Mr. Hostettler. Okay.
    Admiral McCarthy. We still have as many ready crews. What 
has changed is the position of the ships at any given time. So 
the readiness does not change.
    Mr. Hostettler. Okay.
    Admiral McCarthy. Now, the size of the force and the 
combined capability of 281--obviously, as you know, the Chief 
of Naval Operations (CNO) has built a force structure plan to 
build a greater Navy that we believe is required to meet all 
the requirements of the nation's national defense from a 
maritime perspective.
    So we are working toward that, so all of that is in 
context. But Sea Swap does not change the readiness of the 
force structure we have today.
    Mr. Hostettler. Thank you.
    Mr. Hefley. Mrs. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I want to 
especially thank you for holding this important hearing. It is 
very important to me.
    And I want to thank the Ranking Member Ortiz and my 
colleagues who are here.
    And thank you for including within this hearing an 
evaluation of the shift to the Pacific naval forces and what 
that means for U.S. ship repair capabilities, particularly that 
capability as it currently exists on Guam.
    Let me also thank my colleagues who have expressed their 
concern today about foreign ship repair.
    This committee knows well of my concern and, frankly, my 
outrage that more ships are being repaired in Singapore, a 
foreign shipyard, than in the U.S. shipyard, with U.S. 
employees on a U.S. naval base on my home island of Guam.
    I have taken nine CODELs to Guam, and many have seen the 
shipyard, the latest being Congressman Bartlett and Congressman 
Taylor, who is with us here today.
    They have had the privilege of meeting many of its fine 
skilled employees. But those who have seen it know fully well 
that it is struggling to sustain and struggling to modernize.
    This committee also knows of my displeasure with the fact 
that the Navy has construed Title X ship repair provisions, 
those I term ``repair American'' provisions, as excluding Guam 
as a U.S. home port.
    And I might say that just this afternoon among the 
witnesses here, someone said our U.S. shipyards in Guam. Guam 
is a U.S.--we are part of the U.S. family. And if you are going 
to refer to it in a different way, then just say a U.S. 
shipyard offshore.
    Excluding Guam as a U.S. home port--because of this 
enabling ships home ported in Guam to be repaired in foreign 
shipyards, so I look forward to continuing to work with this 
committee to close this loophole.
    You can imagine the outrage a Guam Shipyard employee has 
when he is laid off for a month or two because of a lack of 
work while watching a naval vessel tied up at the pier across 
from his yard steam out to Singapore to be repaired by foreign 
employees.
    Further, if there is any question as to whether Guam is 
American soil, you might pause and think that Guam and our 
surrounding islands have lost 11 American service members and 
citizens fighting in the war on terrorism. Singapore, as 
opposed, currently has not a single serviceman serving in our 
fight in the Middle East and contributing to fighting terror.
    And I know the old arguments that are going to come out. It 
is cost. Yes, it is more expensive to repair ships in American 
yards.
    But why? This committee knows it is because our nation 
believes in a living wage for our workers, and guaranteeing a 
safe environment for them to work in, and in using U.S. tax 
dollars to buy parts from U.S. suppliers.
    Even more so, we know the investment in maintaining a U.S. 
industrial base is vital to protecting our national security 
interests in the event of contingencies. We cannot count on 
foreign yards being there for us in a time of war, and we 
certainly cannot expect them to be safe harbors during such 
times.
    And I might add that repairing American ships in foreign 
shipyards is akin to buying American berets in China due to 
cost. And I think the U.S. Congress knows what I am talking 
about.
    This committee and this Congress has stood hard and fast in 
saying that we will not outsource our national security. And I 
thank the chairman and my colleagues for this discussion, one a 
little long by my usual practice, but it is important that we 
have this to say.
    Today, with more forces moving to the Pacific, the 
importance of having a stable, modern ship repair capacity in 
the Pacific cannot be understated.
    Who provides that service, the Navy, the current operator, 
or someone else? It doesn't matter. It is having and growing 
the capability that is vital because the Guam Shipyard in its 
location, with its employees, are important to U.S. security. 
And we can do this by stopping foreign repairs.
    Today's witnesses have spoke of the tyranny of distance in 
the Pacific. The shipyard in Guam and those in the state of 
Hawaii help remove this tyranny. But are we properly 
safeguarding their employees and workload?
    We talk of a more expeditionary Navy, and yet the most 
forward U.S. ship repair facility that can support this 
expeditionary force is struggling to survive and modernize. And 
meanwhile, gentlemen, we watch the Navy use words like 
operational requirement and voyage repairs to sneak past U.S. 
law and get support ships into foreign yards.
    Let me close here and pose a short question. The commander 
of the Pacific fleet has on numerous occasions, including in a 
2004 report to Congress, called the Guam Shipyard of ``vital 
strategic importance.''
    Gentlemen, is this or is this not true? And given the QDR, 
I tend to believe it is more true than ever.
    I would like to show at this time--it was on the cover of 
the Guam business magazine. This is the repair of the USS San 
Francisco submarine. I am sure you remember it. It was in the 
national press across the nation.
    In that little Guam Shipyard, we repaired this ship so that 
it was able to get back to the state of Washington where it is 
now, I think, going to survive, and they are looking at 
repairing it for future use.
    But this was a terrible accident, and we did it. We put it 
up on our dry dock and we repaired it with our people, with the 
help of the Navy and others that came through. We do not have 
nuclear repair capabilities on Guam now, but hopefully I would 
like to see that happen.
    And the San Francisco certainly shows us why Guam is of 
vital strategic importance. So I ask why are we saying one 
thing while doing another. Why are so many ships going to 
foreign yards?
    And I have a report here that the Military Sealift Command 
has over 20 ships overseas that are repaired in foreign 
shipyards. I don't know if these statistics are right, Admiral. 
Correct me if they are not. And MARAD has three vessels 
currently, is that correct?
    So why are so many ships going to foreign yards that could 
be going to shore up our industrial capacity in Guam, Hawaii 
and San Diego? And one of you mentioned the Petersburg. Yes, 
that is true, Guam was too busy to take it on. But why didn't 
you take it to the U.S. state of Hawaii? That is my question.
    [Applause.]
    Admiral McCarthy. I will respond in a couple of ways. You 
have raised several issues. One, you asked specifically about 
the Pacific fleet commander's assessment.
    As I know you are aware, each year the Pacific fleet 
commander looks at the Guam capability, shipyard maintenance 
capability there, to determine the level of capability the 
Pacific fleet indicates is required to be maintained in Guam.
    That determination results in channeling on a sole-source 
basis of work to the Guam Shipyard. Now, that work is Military 
Sealift Command work.
    As recently as today, I received a communication from the 
fleet commander reinforcing the fact that that annual 
determination represents the capability that the fleet 
commander feels needs to be resident in Guam, and that the 
respective workload that is placed in Guam as a result of that 
is the appropriate workload.
    Now, I need to make sure you take that in context, because 
there are operational considerations.
    And the essence of the fleet commander's communication was 
the potential implications of changing what I will call the 
framework within which we make maintenance decisions in a 
theater that would potentially pull ships out of theater for 
extended periods of time, therefore reducing the level of 
capability available to meet operational concerns.
    That is about as far as I can go without potentially 
getting into classified discussion, which we could have in 
separate forum, and I am happy to share that kind of insights 
with you.
    But I would reemphasize that we rely on the certification 
of the fleet commander as to the capabilities he feels needs to 
be resident in Guam. That particular determination has resulted 
in a significant amount of work, which, I know--as I think you 
are aware, has been relatively growing over the years in terms 
of the amount of work that has gone to Guam.
    And in fact, the numbers I have indicate that year to date 
there is $24 million in workload in this fiscal year going to 
Guam as a result of that determination. And we will continue to 
channel to meet the combatant commander's requirements or the 
navy component commander's requirements.
    Guam is the only repair facility that has that kind of a 
relationship. There is none other that we go through this 
process of an annual fleet commander determination that directs 
what level of capability needs to be retained in Guam.
    So it is unusual, and I would argue that that process 
reinforces your comment that Guam is an important factor in our 
forward fleet presence, and we do rely on the fleet commander's 
responsibility.
    I am going to let Mr. Thayer talk a little bit about MSC, 
because you asked specifically about Military Sealift Command, 
and in fact, most of the Guam work that is channeled in there 
is Military Sealift Command work.
    And I will say at the outset, as I turn it over to him to 
comment, that right now 89 percent of the repair work done for 
MSC vessels is done in U.S. ports. So what we are talking about 
is about the 11 percent, roughly 11 percent, level of the 
Military Sealift Command repair work that is currently, on 
average, done outside U.S. ports.
    Ms. Bordallo. Admiral, what percentage did you say was----
    Admiral McCarthy. Eighty-nine percent is done in U.S. 
ports.
    Ms. Bordallo. Eighty-nine.
    Admiral McCarthy. Yes, ma'am.
    And let me let Mr. Thayer expand a little bit on Military 
Sealift Command's practices relative to use of U.S. versus 
foreign ports.
    Mr. Thayer. Thank you, Admiral.
    Ma'am, I think, as you know, the governing framework for 
the repair of the Military Sealift Command ships is based in 10 
USC 7310, and Military Sealift Command ships are not given 
designated home ports. But those that do operate out of the 
United States are all repaired in the United States.
    Those that are forward deployed for extended periods of 
time are designated as home ported overseas, and so designated 
by the assistant secretary of the Navy for research, 
development and acquisition. And I believe that is the list 
that you are referring to with regard to 30 ships.
    There are presently 30 ships on that list. Of those 30 
ships, five of those ships are repaired at Guam Shipyard, as 
the admiral referred to, within the framework established by 
the commander of the Pacific fleet justification and approval 
for sole-source contracts with Guam Shipyard.
    Nine other ships on that list, although they are on the 
list, are generally repaired in the United States because they 
are on our pre-positioning force and they return to the United 
States for their repairs.
    Of the remaining ships that are on that list that are 
forward deployed for extended periods of time--those ships are 
repaired based on competitive solicitations that are generally 
awarded to yards overseas, foreign shipyards, based on the 
repair schedules that match up with the operational schedules 
of the Pacific fleet commander.
    Ms. Bordallo. Why do we take any ships to a foreign yard to 
be repaired? I think that is the basis of my question.
    Admiral McCarthy. Again, that is the issue where we cross 
into the operational impacts of the policy and how the policy 
is applied, and I would ask that we have the opportunity to 
meet with you separately when we can discuss in a classified 
forum what some of the bases for the decision are and the 
impact of moving ships out of theater from an operational 
perspective.
    Ms. Bordallo. Thank you, Mr. Chairman. I have taken more 
than my allotment of time.
    Mr. Hefley. Thank you.
    Mr. Schwarz.
    Dr. Schwarz. Thank you, Mr. Chairman.
    I would like to welcome to Michiganians to the witness 
table today, and it is nice to see my close friend John Jamian, 
with whom I served in the Michigan legislature some years ago. 
John.
    Let's talk about the Navy Expeditionary Combat Command and 
riverine forces for a moment. And first, let me say that 
historically the U.S. Navy has been the branch of the service 
to carry on riverine operations. We can go back as far as 1862 
or 1863, whenever David Glasgow Farragut went up the 
Mississippi and took Vicksburg.
    I say that to my friend from Mississippi, and I know he 
will say something back.
    But the riverine forces in Vietnam, which I had the 
privilege and pleasure of operating with on a number of 
occasions while I was employed by another government agency, 
were Navy. It was a Navy operation.
    The nasty boats going up and down the river--it is the most 
scared I have ever been in my life, but we will save that for 
another time.
    But historically, Mr. Chairman, the riverine forces have 
been Navy, and amphibious forces, Navy amphibious forces, Navy 
enlisted men in Mike boats and Landing Craft Vehicle Personnel 
(LCVP), are the ones who landed the troops at Normandy as well, 
so this has been something that has been under the aegis of the 
Navy.
    Admiral, can you tell me a little bit about the craft that 
you are going to use? There is a little bit of a description 
here, the small craft characteristics of the riverine craft you 
plan on purchasing.
    And approximately, you know, how many? And from a 
geographic standpoint, ballpark me on where you think some 
riverine threats might be in the next decade or so.
    Admiral Bullard. Yes, sir. In fact, I am at a conference 
with about 280 of those old river rats from Vietnam that--
probably one of them was driving your boat.
    Dr. Schwarz. The ones that drove the ones I was on were 
wild men, I can tell you that.
    Admiral Bullard. Some of these still are.
    Dr. Schwarz. That doesn't surprise me one bit.
    Admiral Bullard. As far as the current plan, remember, our 
initial focus on riverine is to stand up a capability to assume 
the mission for the Marines in early 2007 at a specific dam in 
Iraq.
    That is our initial focus, and the request for forces has 
requested a 12-boat squadron to do that. There are currently 10 
boats over there which have had hard wear and tear, and there 
is only seven boats here for training.
    We are looking to build initially three 12-boat squadrons 
to be able to do the sustainment of that mission and to be able 
to do phase zero and training tasks in the riverine elsewhere 
initially.
    Admiral McCarthy. Explain phase zero.
    Admiral Bullard. I am sorry, phase zeros are theater 
security cooperation, are stability and shaping operations. 
There are many areas that we look around the world--there is 
places in Africa, there is places in South America--we are 
working in the Philippines--that could use in some of those 
areas.
    We are building a capability to train other forces, local 
forces, and that type security will help improve the flow of 
terrorist goods and people.
    As far as the type of craft we are looking to buy with the 
current request in the supplemental, there are two specific 
craft that have contract availability in the GSA catalog that 
we can buy. One is a SOCAR, which is run by special forces.
    And we are working very closely with special forces. We are 
not doing the same missions they are. They have a specific 
infiltration-exfiltration raid mission.
    The other one is the SURC, which is a small unit river 
craft, which is currently being done with the Marines over 
there. That is available.
    We also have what we call patrol boats. We have 34-foot sea 
arks that are intraboat units do coastal security with right 
now.
    The full riverine mission we did in Vietnam was over 500 
boats and had somewhere between Landing Ship Tanks, (LSTs) all 
the way to 20-30 different types of craft. We are doing the 
analysis of what the eventual capacity requirement is.
    But we need to relieve the Marines now, so we will be 
buying a mixture of the boats that we currently have on 
contract that we can get quickly for attrition boats and to 
outfit our training, which will be in the SURCs, the SOCARs or 
in the current patrol boats we have.
    Dr. Schwarz. May I have 30 seconds, Mr. Chairman?
    Mr. Hefley. Sure.
    Dr. Schwarz. Admiral, just as a statement of fact, is it 
your judgment and the judgment of Navy strategic planners that 
the United States Navy has got to get back into the riverine 
business again?
    Admiral Bullard. Our analysis is that we need to expand our 
capability into the inland waterways and riverine. We know 
there are areas of the world where there are no roads, lines of 
communications. The major line of communication for some of the 
terrorist activities is on the rivers.
    Dr. Schwarz. And this is consistent with the whole concept 
that our foes at least in the immediate--the foreseeable future 
are going to be asymmetric. Some could, in fact, be brownwater 
foes, where we are going to have to go up over the littoral, 
inland to fight them.
    Admiral Bullard. That is, in fact, correct. And this 
riverine is an extension of our current maritime security. We 
have maritime security operations going now all the way to the 
near shore with our naval coastal warfare.
    We are just expanding that capability to where we see there 
is a potential sanctuary, and we need to take that sanctuary 
away.
    Dr. Schwarz. Thank you, sir.
    Admiral McCarthy. Congressman, the answer to your question 
is yes, we do feel this is important.
    Mr. Hefley. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank the gentlemen.
    Gentlemen, this is a follow-up to the previous question. 
Where do you plan on standing up those units?
    Admiral Bullard. The riverine units?
    Mr. Taylor. The riverine units.
    Admiral Bullard. We are doing a basing analysis right now. 
Initially, the first squadron is standing up here in Norfolk 
because its proximity to Camp Lejeune and our command as we 
mobilize.
    We are doing our initial training with the Marines and with 
the Coast Guard at the special mission training center, which 
is run by the Coast Guard and Navy down at Camp Lejeune.
    We are sitting our people through the ranges in combat 
skills down there, so the first initial squadron--and people 
are reporting here. Right now, we have orders for the first 
squadron.
    We are doing a basing analysis right now--the Fleet Forces 
Command--to determine where is the best training and support in 
the future, and then we will program for that when we make the 
decision where the final basing should be.
    Mr. Taylor. Well, a point I hope I can leave you with is 
just yesterday some other admirals were telling us, and some 
other folks, that we are on an unsustainable path for Navy 
acquisitions.
    Obviously, you all know that we don't need to be wasting a 
dollar. And I hope you will take a good hard look at what is 
home port Pascagoula, brand new buildings, brand new piers, on 
the intercoastal waterway near barrier islands, for training, 
near the port of Mobile if you have got to practice against 
large ships, port of Gulfport, port of Pascagoula.
    We have got the Navy Special Boat Unit 22 on the Pearl 
River about 40 miles from there. We are spending a considerable 
sum of money to build a riverine range with pop-off targets. We 
are acquiring 3,000 acres of land in a 120,000-acre buffer 
zone.
    And what I would really hate to see is a military 
construction (MILCON) request in the next couple of years to go 
build something, be it housing, barracks, training facilities, 
at the same time that you are abandoning brand new housing, 
brand new barracks and brand new buildings on the home port.
    That just doesn't make any sense in any environment, and it 
particularly doesn't make sense in this environment. So I would 
ask that you take a good look at that.
    Admiral Bullard. We will. The basing analysis group has 
specifically looked at current capability that is available to 
support the range in training of our troops, and it may not be 
one place. It may be different places that do that.
    But as you said, sir, we need to look at what we have. We 
don't need to build anything new if we have something that will 
work. And that was some of the guidance we gave to our basing 
analysis. And the Fleet Forces Command is looking at it as well 
as the environmental impacts.
    Mr. Taylor. Okay. Could you get me the names of the people 
who are going to be making this analysis?
    Admiral McCarthy. We can get you a point of contact, yes, 
sir.
    Mr. Taylor. And you know, we are not asking for anything 
other than a fair shake and an opportunity to present things 
that have already been paid for at enormous expense by the 
taxpayers that have never been fully utilized that ought to be 
put to good use before we go build something else someplace 
else.
    Admiral McCarthy. We will get you the contact who is 
running the--at Fleet Forces Command who is running the basing.
    Mr. Taylor. Second, I would very much like to echo the 
remarks of Ms. Bordallo as someone who also represents ship 
builders.
    Unless it is an emergency situation, it makes--when we have 
six major shipyards and a number of second tier yards that are 
scrambling for work, it just doesn't make any sense at all to 
be spending even one dollar needlessly in a foreign shipyard, 
unless it is an emergency situation.
    So again, I want to echo the gentlewoman's remarks and 
would certainly encourage you to keep that in mind.
    Thank you, Mr. Chairman.
    Mr. Hefley. Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    And thank you to all of you for being here. And I am sorry 
that I missed the initial testimony, and I know that my 
colleagues have asked a number of questions.
    I wanted to go back to one that I think has certainly been 
discussed and it refers to making Guam a U.S. home port.
    And this is an area that I think you have been looking at 
for some time, as I understand it, and there have been some 
judgments made that--I think there are some savings, and 
perhaps you have discussed this specifically, around having 
those ports serviced in Singapore and in other foreign ports.
    But I wanted to come back to that, because I think, you 
know, intuitively as well as from a homeland security point of 
view and as a secure military point of view, it would seem to 
us that having the opportunity to have Guam as a home port and 
then having some of the ships serviced--whether in Hawaii, some 
perhaps in San Diego as well, we come back to why you are not 
pushing in that direction.
    Admiral McCarthy. This will be a little bit redundant. If 
you will bear with me----
    Ms. Davis of California. I appreciate that, and I apologize 
for that.
    Admiral McCarthy. No, it is worth repeating. I would 
characterize it this way. There are three factors that we look 
at in terms of ensuring we have proper operational support in 
the theater relative to maintenance.
    One involves the operational presence that is supported in 
the theater. The ships that we have to keep available in the 
theater that represent a capability provided to the combatant 
commander.
    The second, of course, is sustaining the maintenance 
capability required for the theater commander within his 
theater of which, in the case you mentioned, Guam is an 
important component.
    And the third factor, obviously, for us is cost. The first 
two drive as much as the last one does.
    In the case of Guam and its utilization, and in the case of 
our positioning of ships in terms of where we do maintenance, a 
key consideration in the Pacific is operational presence 
because of the long transit times necessary to move ships about 
the theater in the Pacific.
    Each year, the Pacific fleet commander makes a 
determination specific to Guam as to the capabilities that he 
wants maintained in Guam to support his long-term ability to 
sustain his force in the Pacific.
    That determination results in sole-source maintenance 
assignment to Guam to correspond with the level of capability 
the theater commander has stipulated needs to be maintained 
there.
    That is the only repair facility in which we have that kind 
of a relationship where we sole source work on the basis of a 
combatant commander's determination. So that is our first 
priority relative to loading Guam.
    The combatant commander in this case, the Pacific fleet 
commander, our Navy component commander, has indicated he has 
great concerns with changing the relationship that exists in 
the Pacific theater now because of potential operational 
presence implications.
    So as I mentioned earlier--and some of this borders into 
the classified arena that I can't discuss in open forum--I 
think we need to have a follow-on dialogue to share with you 
some of the operational commander's concerns relative to 
potentially changing the current arrangement that allows him 
the ability to determine the capabilities required in the 
theater and to ensure that the maintenance plan and where we 
conduct maintenance properly supports the operational presence 
requirements within the theater.
    But those are the key factors that we consider when we make 
the maintenance determinations in the Pacific in particular.
    Ms. Davis of California. And is it possible in this setting 
to discuss one or two things that you could anticipate changing 
that would make a difference in that regard?
    Admiral McCarthy. We certainly can have that dialogue, and 
we would be happy to have that dialogue, yes, ma'am.
    Ms. Davis of California. Okay.
    Admiral McCarthy. But it has to be in the context of the 
operational implications, which is what we are concerned about.
    Ms. Davis of California. Okay. Right. Thank you. Thank you 
very much.
    And I guess I would just ask, because, again, I apologize 
for not being here earlier, whether there are some issues that 
have been touched on in the discussion here today that you feel 
perhaps weren't clarified or you would like to really discuss, 
if there are some questions regarding the expeditionary force.
    I think, from what I understand, there was some concern 
that the Navy is taking on some missions that are not those 
which are traditional missions, and, in fact, there has been 
some concern about how those not be addressed in the future. 
Would you like to respond to that?
    Admiral McCarthy. And I think we covered that, but if you 
are giving me an opening, if that is what you are providing me 
here, there is one area I would like to at least spend a few 
moments on, which is to make sure there is a clear 
understanding of what the Fleet Response Plan provides us as a 
Navy, because we think, as I mentioned in my statement, many of 
these initiatives, these transformation initiatives, that you 
see the Navy pursuing right now are directly related to this 
Fleet Response Plan format.
    So if you will allow me, I would like to ask Admiral 
Crowder to just briefly give you an outline of how the Fleet 
Response Plan plays.
    And I reiterate a comment I made earlier that Admiral 
Crowder was the battle group commander for the Lincoln battle 
group which was surged forward unexpectedly into the Pacific 
theater and which did, as a result, of course, become a key 
factor in the tsunami relief efforts that were so important to 
our nation.
    So, Doug, if you would.
    Admiral Crowder. Good afternoon. The Fleet Response Plan 
was developed by Admiral Clark, our previous CNO, in the 2003 
time frame. And quite frankly, it was more of a mind set shift 
for our Navy.
    During the 1980's and 1990's, traditionally, we looked 
forward to a scheduled 6-month deployment, very predictable. We 
knew when it was. It was going to be in a ship cycle between 
shipyard period to the next one, was going to be one single 6-
month deployment.
    And we would spend however much time getting ready for that 
deployment and then go on that deployment and come home. What 
the net result was was a lack of focus on other missions other 
than that scheduled deployment.
    So what the Fleet Response Plan said was come out of the 
shipyard, get ready right away, and then be in a deployable 
stage for many, many months in order to do scheduled 
deployments but also pulse forward in response to tsunami 
relief, for example, or show of force, that sort of thing.
    And third, to be able to respond should one of the COCOMS, 
one of the combatant commanders, had to fight a war in his area 
and we could surge then. Instead of just having that ship carry 
a strike group ready just before its scheduled deployment, we 
would have six ready within 30 days to respond in quick manner 
to a particular crisis throughout the globe.
    So that is where we are at, and it allows us now to go back 
and look at these scheduled deployments and to have a lot more 
flexibility on how we deploy our forces in support of the 
overseas commanders.
    Admiral McCarthy. Can you put up that one chart?
    Admiral Crowder. And we have a slide--I think it is in your 
packets--that shows this.
    But essentially what it shows in the yellow there is the 
ships in the shipyard, and they come out and then quickly start 
this training program such that after 4 months or 5 months you 
were in the tan there, which we have enough training that could 
emergency surge in case of a crisis, then go ahead and finish 
the training.
    And then the rest of that purple--many, many, many months 
we--that carrier strike group--and in this case, it will be a 
total of six carrier strike groups--are deployable.
    And again, this idea of deployability instead of just 
focusing on the scheduled deployment is the key element that 
makes this Navy now much more ready, much more flexible and 
much less predictable than it was in the 1980's and 1990's.
    Ms. Davis of California. Thank you.
    Can I get a quick follow-up?
    I just wonder, are there any other--you know, as we talk 
about interagency, does this process with the--do you depend on 
anything other than the Navy to make this happen?
    Are there other concerns that come into play that need to 
be fleshed out in order for you to be successful at doing this?
    Admiral Crowder. I think, yes, in a general sense, no. It 
really is an inside-the-lifelines Navy issue, although part of 
our training is joint training, and we rely on the other 
services to come together and help us get to a level of joint 
training that we are comfortable, you know, going forward, 
especially in time of war.
    Admiral McCarthy. And of course, to achieve the readiness 
level--readiness in this case would include the readiness of 
the Marines relative to amphibious capability.
    There is also, often times, deployment integrated with 
Coast Guard units, and they would become a part of the workup 
and training associated with the readiness.
    Ms. Davis of California. Thank you very much.
    Thank you, Mr. Chairman, for your----
    Mr. Hefley. Thank you.
    Let me ask the follow-up here, too. Will the shift of 
forces in the Pacific as outlined in the QDR result in a 
parallel shift of vessels with the maritime administration in 
the Pacific?
    Mr. Jamian. Mr. Chairman, it would be hard to answer that 
question in terms of their ship and vessels, because our 
vessels are pre-positioned over in that area and the location 
of that vessel is determined by their plan and the specific 
mission that would fit that vessel.
    So I am not sure what we would be looking at in the future 
as we operate under their operating condition.
    Admiral McCarthy. I may be able to help with that. I think 
the likelihood of a shift would be minimal. The ships that are 
positioned now are positioned to respond to theater commander 
requirements or are positioned in the vicinity where we can 
load them out rapidly to move material forward.
    I don't foresee at this point any requirement to 
reposition, if you will, the RRF force under control of MARAD.
    Mr. Hefley. Any other follow-up questions?
    Yes, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    We are back on my subject again. I am just curious--these 
foreign shipyard--the repair work that we are doing--do they 
meet all the operational requirements when we know very well 
they are not secure? We could very well have another USS Cole 
incident.
    Admiral McCarthy. As far as force protection, I can assure 
you we extensively review--much as we do with a port visit of a 
ship, when we pull a ship in for maintenance, it has to have 
been reviewed and complied with the theater commander's force 
protection provisions. A plan must be submitted and approved by 
the theater commander.
    So the force protection provisions regardless, when we 
decide to position a ship for maintenance, are just as if we 
were pulling a ship into port. Same process.
    Ms. Bordallo. Thank you very much. Thank you, Admiral.
    Mr. Hefley. Mr. Taylor.
    Mr. Taylor. Admiral, about 10 years ago, or in the wake of 
the first Gulf War, we realized that we did not have enough 
support vessels. We addressed that in several ways. One was to 
build the medium-speed ROROs.
    The Marines took a slightly different course in that they 
went and bought some vessels on the open market, cut them in 
half, added mid-body sections.
    And the point that they made was that they--with the demise 
of the Soviet Union that they could buy these hulls for such a 
bargain that they could convert them for less money and in less 
time than building from scratch.
    And I followed one of them very closely because it was 
named after a hero from South Mississippi, the Roy Wheat. And I 
know that, A, we didn't save any money, and it ended up 
actually taking longer than building a ship from scratch.
    So with that in mind, when you talk about one of the 
reasons the Petersburg went to Singapore instead of Guam, what 
you didn't say was--and I am curious to know the answer--
whether it was actually--that the work was actually completed 
on time.
    Did you save any time at all by taking it to Singapore or 
did you end up spending, using the example of the Wheat, more 
time and more money by going to an outside yard?
    Admiral McCarthy. I can't comment on the Petersburg, so I 
will yield that to him.
    Mr. Jamian. I wasn't sure, Congressman, if you were asking 
the admiral that question.
    Mr. Taylor. Well, I am opening it up to the panel. You were 
the one--well, someone on the deck referenced the Petersburg, 
and that is what got me thinking.
    Mr. Jamian. Yes, I represented the Petersburg, and let me 
just preface my comments by saying that MARAD takes a lot of 
pride in the fact that 95 percent of our vessels are repaired 
at U.S. facilities. That is a very important thing for our 
agency, because we do represent and promote the U.S. maritime 
industry as a whole.
    In the case of the Petersburg, we had some constraints 
around us in terms of its mission, and in terms of the vessel's 
certification and documentation, we had to be very, very 
careful because in the case of the Petersburg and Guam versus 
Singapore, the problem is that we had certificates on the 
vessel that were going to expire if it had stayed in that 
particular shipyard, the Guam Shipyard, for that long of a 
period.
    And thus, the vessel would not have been available for the 
mission that it was designed to do. So it was a real problem 
area there for us. Guam's schedule on that ship repair was 82 
days and Singapore's was 35 days. The bid on that was three 
times more than Singapore.
    But the driving force behind that decision was really based 
on that ship's particular mission and the time needed for that 
ship to complete that mission. At the end of the day, the 
repair was made.
    I can't tell you the exact dollar at this point in time, 
but I would be happy to get back to you, because I know you 
wanted to know if it was really that much more significant or 
less. But we would be happy to get back to you on there.
    But everything worked out right for us.
    Mr. Taylor. What about the time line, sir?
    Mr. Jamian. The amount of time that the ship was in the 
yard? Our contract for services required 35 days, and it is my 
understanding that that ship was in and out of that particular 
facility during that time, because we had certificates on that 
vessel that were going to expire.
    If this work was not done, this ship could not sail. The 
ship sailed, so I am assuming that it was the 35 days that we 
put out on the contract.
    Mr. Taylor. And I don't expect you to know everything, but 
for the record, can you tell us how long that took? No, you 
don't have to know this moment, but for the record, if you 
would get back to us----
    Mr. Jamian. For the record, sir, what I will do is get back 
to you on the exact time.
    Mr. Taylor. And what I would like to see, for the record, 
is what you estimated the time would be, what the actual time 
was, what you anticipated the cost would be, what the final 
bill was.
    Mr. Jamian. Okay.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Hefley. Any further follow-up questions?
    Mr. Ortiz.
    Mr. Ortiz. Well, Mr. Jamian, I know that the Merchant 
Marine vessels carry billions of dollars of merchandise, you 
know, from oil to you name it. And I just read in the newspaper 
the other day that a cruise ship was attacked by pirates.
    Do you feel necessary--or are your vessels protected at 
sea? And maybe it is classified information that you cannot 
give out, but do you find it necessary to--or do you feel 
competent, maybe, with the Navy that they are protecting all 
the commercial vessels?
    Admiral McCarthy. I suspect you are probably referring more 
to the Military Sealift Command vessels than you are to the 
ready reserve force, which is what MARAD manages.
    In the case of the Military Sealift Command vessels, we 
will position, depending on the threat and the environment in 
which they are working, security teams on board the military 
sealift ships to ensure that the force protection is provided.
    And, Don, you may want to comment on that.
    Admiral Bullard. We have what we call expeditionary 
security forces, some Reserve, some active. And we station and 
fly them, and they go right all the way around into Fujara, 
Ashwayba.
    We have mobile security. You have got seven and 71 in Guam. 
They ride MSCs, deploy onto ships when they are going into 
ports. Our expeditionary security force here is, when required, 
put those--they run from 12 to 18. They work for the master. 
They are trained as a unit to do, at sea, counter-piracy or 
terrorism as well as protect the ship in a 24/7--in port, in 
conjunction with the host nation. So that is what part of this 
force is about.
    Mr. Jamian. Congressman, you had asked me the question as 
far as the RRF, and let me just address that for a second. As I 
mentioned earlier in my testimony, RRF ships in most cases will 
go onto the operational command of MSC, and so that they had 
answered that.
    You should know, though, specifically, with the RRF ships, 
when they go on their operational command, they do have force 
protection on them depending on where they are going. So if 
they are going into the theater, obviously, they would have 
force protection.
    You brought up the issue of the cruise ships. There are 
also merchant ships. There are commercial ships that operate 
under the MSP, the Military Security Program, or the Maritime 
Security Program, that goes and is operational, too.
    In many cases, commercial vessels will hire their own force 
protection or they will request additional force protection 
from the Navy or the Coast Guard if they are in the operational 
area over there.
    So it is really becoming a concern when they go to that 
particular area. Other places in the world's oceans, it may not 
be.
    Mr. Ortiz. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hefley. Ms. Bordallo, do you have another question?
    Ms. Bordallo. Thank you, Mr. Chairman. You seem to read my 
lips.
    I am back again to the ship repair. I am very concerned, 
gentlemen, genuinely concerned, that the Navy may be 
representing to the ship repair industry in Hawaii that this 
amendment will take work from Hawaii and send it to Guam.
    Well, this is not the case. The amendment will instead take 
work from Singapore and send it to the U.S. shipyards. I would 
like your comments on this.
    Isn't it true that this amendment would bring a significant 
amount of work currently going to foreign yards back to Guam, 
Hawaii and San Diego, places that need more work to sustain 
their workforce and not shift work within U.S. yards?
    Could I have a comment on that, Admiral?
    Admiral McCarthy. Yes, ma'am. I will make a comment. First 
of all, I wouldn't want to comment on language I haven't 
necessarily reviewed personally, okay?
    But having said that, I think I understand the intent. I am 
not aware of anyone representing to Hawaii a position on the 
part of the Navy, so if that is happening, I am unaware of that 
happening.
    The issue that we are concerned about in the language, 
potential language--and that is where I believe the best 
outcome is for us to have a conversation on it--is not about 
where the work goes. It is about the operational presence 
impact of moving work away from the theater.
    So whereas today utilizing foreign yards for the limited 
amount of time that we do, it allows the ship to remain in 
theater and meeting combatant commander requirements.
    Moving that ship substantially away, even to Hawaii--is a 
significant transit distance--has potential operational impacts 
that are of concern to us. That is the primary issue.
    Ms. Bordallo. Well, I just wanted to make it absolutely 
clear, because I think some of my colleagues mentioned it 
earlier. What I am just trying to say is that in cases of 
emergencies, as Mr. Taylor mentioned, we understand that, 
Admiral.
    But the numbers are increasing, and this disturbs us. And I 
know it has to do with cost. This seems to be the bottom line 
to everything that we hear in the U.S. Congress. You know, it 
is all about cost.
    And certainly, that is understandable, but when our 
workforce is suffering, that is when I become very concerned. 
So I just want to thank you for your patience this afternoon, 
and this is something that has really been bothering me for a 
long time, so I am glad we had this exchange.
    And I want to thank you gentlemen very much.
    Mr. Hefley. Thank you, gentlemen, for being with us today.
    And the committee stands adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 6, 2006

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 6, 2006

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 6, 2006

=======================================================================


                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor.So with that in mind, when you talk about one of the 
reasons the Petersburg went to Singapore instead of Guam, what you 
didn't say was--and I am curious to know the answer--whether it was 
actually--that the work was actually completed on time.
    Did you save any time at all by taking it to Singapore or did you 
end up spending, using the example of the Wheat, more time and more 
money by going to an outside yard?
    And I don't expect you to know everything, but for the record, can 
you tell us how long that took? No, you don't have to know this moment, 
but for the record, if you would get back to us----
    Mr. Jamian. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
